No. 21-230
William Herman Viehweg,
Petitioner,
v.
Sirius XM Radio, Inc.,
Respondent.

AFFIDAVIT
On this 16th day of September, 2021, I, Anthony G. Lantagne, hereby certify
that this BRIEF IN OPPOSITION was sent this same day via Federal Express,
Next Day Delivery, to the Supreme Court of the United States. I further certify
that I have served by Federal Express, Next Day Delivery this same date the
required copies to the pro se party listed below:
William Herman Viehweg
114 W. 2nd South
Mt. Olive, IL 62069
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 16th day of September, 2021.

e
Lanta
egal Printin , nc.
801 E . Main Street, Suite 100
Richmond, Virginia 23219
(804) 644-04 77

COMMONWEALTH OF VIRGINIA
CITY OF RICHMOND

)
)

to-wit:

Anthony G. Lantagne appeared before me this 16th day of September, 2021, and
attested that the foregoing affidavit is true an exact o t e es o his knowledge
and belief.

